U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 31, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Tyrone Valentine v. United States of America,
S.Ct. No. 20-7326

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 25,
2021, and placed on the docket on March 5, 2021. The government’s response is due on April 5,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7326
VALENTINE, TYRONE
USA

KEVIN C. CURRAN
ASSISTANT FEDERAL PUBLIC DEFENDER
1010 MARKET STREET
SUITE 200
ST.LOUIS, MO 63101
314-241-1255
KEVIN_CURRAN@FD.ORG

